. V/

I;

r-

ip?

,

AAli'

No .

IS6INAI
Supreme Court, U.S.
FILED

IN THE

JUL 0 a 2020

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

OCTOBER TERM, 2019

OOMIAH WASHINGTON,
PETITIONER,
US
WILLIS CHAPMAN,

RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Oomiah Washington#786873
Pro Se Litigant
Thumb Correctional Facility
3225 Oohn Conley Drive
Lapeer, MI 40446

.H

QUESTIONS PRESENTED
Petitioner Domiah Washington was arraigned at his initial
appearance in front of a Detroit Magistrate (Judge for first degree
murder without counsel. At trial, the State relied on a thirdparty witness's coerced testimony that was manufactured by police
under extreme torture and psychological tactics,
In affirming the denial of his federal habeas petition, the
Court Of Appeals for the Sixth Circuit determined that under
Michigan law, the assistance of counsel at the initial arraignment
is not required. The court then avoided the question of whether
the third-party witness

psychological coercion violated due

process because the record did not support a factual basis of
coercion .

The Questions presented ere:
1 .

Whether The Sixth Circuit Court Of Appeals erred and made
a decision that conflicts with this Court's holding in
Rothgery v Gillespie. 128 Set 2570 (2008) by concluding
that under Michigan law, the Sixth Amendment right to
counsel does not extend to the initial arraignment on
the warrant?

2.

Whether Mr, Washington's due process rights were violated
when the State made use at trial of a pregnant witness's
statement extracted by police through egregious torturetype-tactics and psychological coercion? And, Can the
reviewing court on habeas review, rely on the existing
trial court record as a factual basis to determine the
coercion?

i

DISCLOSURE OF CORPORATE STATEMENT

Pursuant to Supreme Court Rule 29.6, Petitioner makes the
fallowing disclosure:

1 .

Is said party a subsidiary or affilitate of a publicly-owned
corporation?
No .

2.

Is there a publicly-owned corporation, not a party to the
appeal, that has financial interest in the outcome?
No .

Respectfully submitted,
/s/Jomiah Uashington#786873
Thumb Correctional Fac.
3225 3ohn Conley Drive
Lapeer, MI 48446

TABLE■OF CONTENTS
OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX;A

Gpinion/Order denying motion for certificate of
appealability. Jomiah Washington v Willis Chapman,
No#1 9-2454 , decided April 24 2020 .

APPENDIX :B

Opinion denying petition for writ of habeas corous.
Washington v Chapman, 2019 US Diet Lexis 198972'
decided November 18, 2019,
’

APPENDIX :C

People v Washington, 913 NW2d 313(Mich 2018), order
denying motion for reconsideration.

APPENDIX:D

People v Washington, 908 NW2d 8B6(Mich 2018), order
denying application for leave to appeal from the
Michigan Supreme Court.

APPENDIX:E

People v Washington, Mich App No#334514, order denying
application for leave to appeal from the Michigan
Court Of Appeals decided November 23, 201 6

APPENDIX-F

Opinion and Order denying state court motion for
relief from judgment decided May 25, 2016.

APPENDIX :G

People v Washington, 497 Mich 1027(Mich 2015), order
denying application for leave to appeal from the
Michigan Supreme Court.

APPENDIX :H

People v Washington, 2014 Mich App LEXIS 1 726,
unpublished opinion from the Michigan Court Of Appeals,
dated September 16, 2014.

APPENDIX :I

State Court docket entry

APPENDIX : J

Excerpted Trial Testimony of Amanda Baer

APPENDIX :K

Excerpted Trial Testimony of Detective Brian Bowser

ii

TABLE OF AUTHORITIES
Barron v Maclaren, 2015 WL3464117(ED Mich 2015),.........

.1 3

Blackburn v Alabama, 361 US 1 99 (1 960)..............................

1B

Bradford v Johnson, 354 F Supp 1331(ED Mich 1972)

...

___ 20

Bradfoed v Michigan, 349 US 1022 (1969)............................

19

Brewer v Williams, 430 US 387(1 977).....................................

8, 11

Cullen v Pinholster , 563 US 1 70 (2011 )

5

Crane v Kentucky, 476 US 6B3 (1986)

17

Dimmick v State, 473 P2d 616 (1970)

19

Doyle v Scutt, 347 F Supp2d 474(ED Mich 2004),

14

Douglas v Woodford, 316 F3d 1079(9th Cir 2003)

20

Greene v Fisher, 132 Set 38 (2011 )........................

15

•Jackson v Dsnno,

(1 964).

17

Oohnson v Zebst, 58 Set 1 01 9 (1 938)

13

Lego v Tuiomey,

378 US 368

404 US 477

(1 972)

17, 18

Lundbwey v Buchkoe, 389 F2d 154(6th Cir 1968)

14

LaFrance v Bohlinger, 499 F2d(1st Cir 1974),.

19, 20

Malinski v New York, 324 US 401 (1945).............

19

Meriweather v Burton, 2015WL7450068(6th Cir 2015)

13

McNeil v Wisconsin, 501 US 171 (1991)........................

8

Michigan v Jackson, 106 Set 1 404 (1 986)....................

8, 9

Powell v Alabama, 287 US 45 (1973)

12

People v Underwood,

19

389 P2d 937(Cal 1964)

People v Washington, 2014 Mich App LEXIS 1726
People v Washington,

497 Mich 1027(Mich 2015),

People v Washington, 908 NW2d 886(Mich 2018)
People v Washington, 913 NW2d 313 (Mich 2015)

;■

iii

6
. 6
. .6
6

United States v Chiavola, 744 F2d 1271(7th Cir 1984).

.20

United States v Fredrick, 586 F2d 470(5th Cir 1978)..

20

United States v Hodges, 208 F3d 227 (10th Cir 2000).,

. .20

Rogers v Richmond

365 US 534 (1961)..._____

18

Rothgery v Gillespie, 128 Set 2578 (2008)......... . . . 8, 9 , 11, 13, 14
Samuel v Frank, 525 F3d 566 (7th Cir 2008)

21

Wilcox v Ford, 813 F2d 1140 (11th Cir 1 987)...

20

Wiggins v Smith, 539 US 510 (2003)....
Williams v Taylor, 529 US 362 (2000).................

...17
16

Court Rules
Supreme Court Rule 10(c)

2, 14

Supreme Court Rule 13(3)

2

Statutes
Anti-Terrorism And Effective Death Penalty Act(AEDPA)
28 USC 1254(1).............................................................

2, 17
2

Michigan Compiled Leu (MCL) 750.31 6 ...................................

6

MCL 750,90b(a)

6

..............................................

MCU 750.1 60 .............................

6

Miscellaneous
57 NW U.L. Rev. 549, 552 (1962)

18

iv

OPINION BEL Dili
Petitioner prays that a writ of certiorari be issued to
review the judgment below:
[x] For cases from Federal Courts:
The opinion of the United States Court Of Appeals for the
Sixth Circuit appears at Appendix:A attached hereto and is
unpublished .
The opinion of the United States District Court for the
Southern District of Michigan appears at Appendix;B attached
hereto and is unpublished.

1

JURISDICTION
On November 18, 2019, the United States District Court for
the Eastern District of Michigan, Southern Division, Honorable
Matthew F. Leitman, denied Petitioner Oomiah Washington's petition
for a writ of habeas corpus under 28 USC § 2254. On April 24, 2020
the United States Court Of Appeals for the Sixth Circuit denied
the timely motion for a certificate of appealability.
The instant petition for a writ of certiorari is timely filed
within the 90-day time limitation from the Sixth Circuit's Order/
Opinion denying the motion for a certificate of appealability.
Supreme Court Rule 13(3). Furthermore, this Court has jurisdiction
to entertain this petition pursuant to 28 USC 1254(1) and Supreme
Court Rule 10 to review the court of appeals for the Sixth Circuit
decision by writ of certiorari.

2

CONSTITUTIONAL AND.STATUTORY PROVISIONS INVOLVED

Amendment.VI
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been committed,
which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be
confronted with the witnesses in his favor, and to have the
assistance of counsel for his defence.

Amendment.XIV
All person born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No state shall make
or enforce any law which shall abridge the privileges or
immunities of citizens of the United States, nor shall any State
deprive any person of life, liberty, or property, without due
process of law, nor deny to any person within it jurisdiction the
equal protection of the laws.
Amendment V
The Fifth Amendment to the United States Constitution provides
in relevant part: "No person shall . . . be deprived of life,
liberty, or property, without due process of law".

3

STATEMENT OF-THE CASE

In May 2011 , the burned body of a woman named Daborah Young
was found in a field. Young had been fatally shot in the head. At
the time of Young's death, she was approximately 20 weeks pregnant.
Petitioner Oomiah Washington (hereinafter Washington) became
a prime suspect in Young's murder because he was the father of her
unborn child, and several witnesses said that Washington had
threatened to kill Young if she did not have an abortion1 . (II,
1 67-1 81 ) . Another witness said that Washington had chocked Young
on a prior occasion. (II, 183-197).
There was physical evidence presented by'the prosecution but
none linked Washington to the murder. (Ill, 9G-108)(V, 16Bf-207) .
The only witness to directly link Washington to Young s murder
and the burning of her body was a woman named Amanda Baer, Baer
is the mother of Washington's two children. On - June 23 , 2011 ,
before the State filed charges against Washington, Baer appeared
at an investigative subpoena hearing. During that hearing, Baer
testified that Washington had told her that he shot and killed a
girl, but the shooting was an accident.
Based on Baer s testimony from the investigative subpoena
hearing (which was not subject to cross-examination) Washington
was arrested and charged with Young's death. On Oune 30, 2011
1 .
Trial Transcripts from April 1, 2013 through April 18, 2013. The
transcripts are referenced from Volume I through XI.

4

Washington was arraigned in Michigan's 36th District Court on
first degree murder charges (amongst other charges) and he was not
represented by an attorney. Appendix:I .
The court appointed counsel ir* Ouly 2011 and the preliminary
examination hearing was held over four days in December 2011 and
May and Dune 2012. At the preliminary hearing, Baer explained
under oath that prior investigative hearing testimony implicating
Washington was perjured and manufactured by detective Brian Bowser
in exchange to be released from jail. Baer testified that Bowser
arrested her without a warrant, denied her multiple request for
an attorney, told that she would give birth to her child in jail
and would spend the next 25 years in prison if she did not falsely
implicate Washington in the murder. (\l 90-110)
In a pre-trial motion to quash Baer s coerced testimony from
being admitted at trial, trial counsel argued that the prosecutor
should not be allowed to introduce Baer s admittedly perjured
testimony because it was manufactured by Bowser. The trial court
denied counsel's motion (over objection). September.21, 2012 pretrial hearing.
At trial, counsel re-newed his objection regarding the
inadmissiblity of Baer's testimony. Baer eventually invoked the
fifth amendment right against self-incrimination due to her
professed perjured testimony. (Ill, 29-57). In response, the state
moved for the admission of Baer's false testimony to be read from
the transcript as substantive evidence. The jury convicted on all

5

charge s :
first degree

murder MCL 750, 316,
assault of a
intenti °nally
Pregnant
causing miscarri a
8s/stiUhirth/[)eath
750.90b(a),
MCL
mutilation of a dead
b°dy MCL 750. 1 60 ,
of a firearm during the
and
Possession
commission of a
felony
MCL
Jury return said
7 S 0,2 2 7 b . The
verdict °n April 1e
w f
201 3 .
Washington
appealed his
convictio
1,5 *° th0
Curt 0f
Appeals, and that
court affirmed
”” September 16, 20u _
Uashingt on, 2014 Mich
People v
APP LEXIS.
Hlehiamn
Court thereaft
Supreme
®r denied leave to
appeal.
PeoPi
e
Mich 1027
v Washinnt on, 497
(Mich 2015) .
Append* x :G .
individual

Washington

then filed a post-

conviction motion f0r
from judgment
relief
in the state trial
c°urt, which
25, 2016.
was denied on May
Appendix :F .
Washington then filed
a timely
for leave to
application
appeal in the
Michigan Court Of
Appeals, but relief
was denied on
November 23
201 6 .
.People y li)ash<n1t
Order No#334514.
Mich flpp
He then filed a
timely
applicatio
appeal in tho
n for leave to
Michigan Supreme
Court which
order . Peopi e .
was denied
hy standard
V <Jashlnn4
9°8 NW2d SS6 (Mich
.A p p e n d i y r g _
2015 )(unpubli
A motion f0r
shed.
reconsideration was s
also . People
ubsequently denied
v Washingt
on> 913 WQ/2d
313 (Mich 2015) .
Appendix • r. .
Washington then filed
a Petition for
a writ of habeas
under 28 (JSC 2254.
corpus
On Novemb er 1 e ,
2019,
Court
United States
Cudge Matthe
Oistrict
u F. Leitman
denied
the
certificate Qf
Petition, denied a
appealabilit y but
granted
Permission to appeal in

6

forma Pauperies. klashinotnn

.^Chapman . 2019 US Dist Lexis
196972,
Washington then filed
a timely motion for a
certificate of
appealability in the
United States Court Of Appeals
for the Sixth
Circuit which denied the
motion on April 24, 2020.
Washington v
Chapman, No .1 9-2454 .
Appendix:A and Appendix ; R .
Washington now seeks a writ of
certiorari .

7

REASONS FDR GRANTING THE MUTT
And Fourt®enth^AiiendBent^Uhdr8tVlol0tBd^Hh*,tS|li*,l^8C Th" SI,,th

cco°n^rr?nrl;:.d

Th°

«78 (200b) , And ?h,nng*q;[rffi;g"y,»,““;"n;n. 128 Set
To Rectify The ViolationqMh»nD*rjXCB *nal**l* In Order
A P.r se Prejud”" „“^r"^"t£2i£f2« »■? N.,er Est.bUsh.S
Lower Circuit And Di.trict Courts

Vacate,
Conflict Between The

A) This Court announced
unambigously that the
guaranteed by the Sixth Amendment applies right to counsel
at the first
appearance before a judicial officer
at
which
a criminal
defendant is told of the formal
accusation
against
him
and restrictions are imposed
on his liberty.
This Court has long

set clearly established precedent that
stood for the
proposition that the right
to counsel applies at
the first appearance before
a judicial officer at which a
defendant is told of the formal
accusations against him and
restrictions are imposed
on his liberty. Rothgerv v Gillespie.
128 Set 2578,’• 2581
20DR}
tm
“oi (^
uubj. This court made
clear to Michigan
courts in previous holdings that
a defendant's initial appearance
before a Magistrate Judge,
marks the initial initiation of
adversary judicial
proceedings that trigger attachment of the
Sixth Amendment right to counsel.
SeB Mohigan v Jackson. 106 Set
1404 (1986)(overruled on other
grounds), see also Brewer v
Williams, 430 US 387

398-399 (1977)f and McNeil
V Wisconsin. 501
US 1 71, 1 80-1 81 (1 991 ). This court has
never waivered in it's
holdings that counsel should be afforded
at arraingment. Hence,
this Sixth Amendment rule is not
mere formalism, but recognition
of the point at which the government has
committed itself to
prosecute, and the accused finds himself
faced with the
prosecutorial forces of

[\

organized society, and immersed :

8

in the intricacies

of substanti ve and
procedural criminal 1 a of,
Rothqerv . supra at 198,
in Jackson supra, this
court was asked
to revisit the precise
question of whether the right to
counsel attaches st the initial
appearance end thia
court firmly had
no trouble affirming its
holding a second time
around. Rothgerv. 554
US 201. in response,
Michigan Attorney General
argued that in Michigan,
any person
charged with a felony, after
arrest,
must be brought before a
Magistrate without
unnecessary delay for
his initial
arraignment,
Michigan explained
• • there is also a second
arraignment in
Michigan procedure at which
time defendant has his first
oportunity to enter
a plea in a court with
jurisdictio n to render
3 fi°al decision in a felony case.
Michigan contended that
only
the latter proceeding, the
arraignment on the informati
on should
trigger the
Sixth Amendment right to
counsel, But this court
"flatly rejected
the distinct!
on between initial
arraignment and
arraignment on the
indictment, the States
argument being untenable
in light of the clear
language in our decision
s about the
significance of arraignment"
■ Jackson.
US 625, Rothgerv. 554
US 202.
in Brewer

supra, the defendant

surrendered to the police after
warrant was out for his
arrest on a charge of
abduction. He was
arraigned before the Judge
on the outstanding
warrant without
counsel. This court
indicated that
Brewer's initial
arraignment
required defendant'
s Sixth Amendment right to
counsel ,

9

And in McNeil

supra, the Court reaffirmed

that "[tjhe Sixth

Amendment right to

counsel attaches at the first formal
proceeding
against an accused",
the court also observed that in
most states
free counsel is made available at
that time. McNeil. 501 US 1801 81 .
B)

Court of Appeals tfor°tho8Sixth'!cl '"’t*1’!! Unlted s*«*ea
Important federal Question i.,* Clrcutt h“’ decided an
relevant declaion. of
Court"fl!
:!onm<:t* "ith
to counael ot the
*■»• right

In his post-conviction motion for relief from
judgment,
Washington made a Sixth Amendment
challenge arguing that he was
entitled to relief because he
was deprived of his right to
counsel at his initial arraignment.
The state trial court denied
relief because the
initial arraignment was not considered
a
critical stage where
legal representation is required. Appendix:F.
(State Court Opinion ) .
Although Washington relied
on this court's
precedent in Rothgery supra, the state
court relied on Michigan
Court Rules to deprive counsel
: "[T]he court
rules are clear that
a defendant may or may not be
represented by counsel, and have
laid procedures to deal with
either scenario. Therefore,
defendant s argument must fail"
• Opinion at 12
Washington then filed his
application for habeas relief in
federal court under 28 USC 2254
(after first exhausting his
claims throughout the state courts) .
In rejecting his claims,
the federal district court
erroneously applied a prejudice
analysis as opposed to
a review under the lens of 2254(d)(1) when
it concluded that: "(EJven
assuming arguendo that Washington
was

10

denied the assistance of counsel at his arraignment
on the
warrant, he is not entitled to federal
habeas relief because he
has not shown how the absence of
counsel at that proceeding
caused him prejudice". Appendix:n, .
Washington then filed a timely motion for
a certificate of
appealability presenting the same claim and the Sixth Circuit
Court Of Appeals determined that there was
no Sixth Amendment
violation because, under Michigan law,
an arraignment is not
critical stage that requires counsel.
Appendix:A .
1" Ind Fou^eenihVf °aunsBl
relief under
the Sixth
Fourteenth Amendment absent a prejudice requirement.
In Rothgery supra, this court made clear that
the Sixth
Amendment right to counsel attaches at the initial
arraignment
and did not require a prejudice analysis nor did it
necessarily
require a critical stage showing in order to find
a violation.
The issue in Rothgery was whether Texas
's article 15,17 hearing
marks the point for counsel,
and this court agreed that it was .
Just like Texas 's article 15.17 hearing,
Michigan has an initial
arraignment that initiates adversary judicial
proceedings that
trigger the Sixth Amendment right to counsel . See Oackson
supra
at 629. Again, there was
no prejudice requirement.
This court s conclusions in Rothgery,
Brewer, Jackson and
McNeil
are not vague regarding prejudice - its absent: Brewer
expressed » no doubt" that the right to
counsel attached at the
initial appearance. 430 US at 399.
Jackson said that the opposite
result would be "untenable". 475 US 629 .n .3 .
Me Neil reaffirm the

[\

11

Sixth Amendment right to counsel attaches at the first formal
proceeding. 501 US 173.

Rothgery clearly held defendants are
entitled to counsel at the initial arraignment in front of
Magistrate. 554 US 201. In the fourteenth amendment
context, this
court said that an accused in a capital case requires the guiding
hand of counsel at every step in the proceedings against him. See
Powell y Alabama. 287 US 45, 69 (1973). Hence, this court did not
necessarily mandate a prejudice showing in order to determine
a
Sixth Amendment violation.
Accordingly, this court is now faced with a similar question
as that presented in Rothgery: whether the initial arraignment
in Michigan triggers the Sixth Amendment right to counsel and
whether a criminal defendant in that
context must also demonstrate
how he was prejudiced in order to establish
relief under the
Constitution? Fundamental fairness answers yes in part and no in
Part.
This court's conclusion in Dackson was driven by the same
considerations the court had endorsed in Bretuer ■ by the time a
defendant is brought before a judicial officer, is informed of a
formally lodged accusation, and has restrictions imposed on his
liberty in aid of the prosecution, the State's relationship with
the defendant has become solidly adversarial. This simply means
that the Sixth Amendment attaches when the judicial proceedings
commence (why should a defendant in a serious offense case have to
stand before a judge without counsel?).

12

This court

holding in Rothgery bias narrow and did not

mandate a prejudice requirement 90 the lower courts that applied
a per se prejudice analysis did so outside the parameters of
Rothgery which was in error. Indeed, the deprivation of counsel
stands as a jurisdictional bar to a valid conviction and hindges
on life or liberty (due process), and therefore prejudice is
presumed . Johnson v Zebat, 5S Set 1019 (1938),
The Sixth Circuit for the United States Court Of Appeals and
the Michigan state courts that decided this issue by requiring
prejudice requirement or a showing th,at the proceeding must be
critical stage conflicts with relevant decisions of this court.
2. The lower courts decisions regarding the right to counsel
at the Initial arraignment is contrary to this court's
holdings. Thus, the issue should be settled by this court.
The state trial court denied relief under the assumption that
Michigan Court Rules trumps clearly established precedent from
this court. Appendix :F . The federal district court denied habeas
relief because it determined that Washington could not demonstrate
prejudice and it came to that conclusions by relying only on
district court cases, not holdings from this court. The district
court cited Barron v Maclaren, 2015 WL 3464117 *1(ED Mich 2015)
(Petitioner not entitled to relief because he did not allege harm
by the absence of counsel at his initial arraignment); Meriweather
iijurton, 2015 WL 7450068 *4(6th Cir Nov 24, 201 5)(Petitioner not
entitled to relief on his Sixth Amendment right to counsel
claim
because in Michigan initial arraignment do not require an attorney

13

to be present); P£Vlig_y_Scutt, 347 F Supp 2d 474,
481(ED Mich 2004)
(same) , The Sixth Circuit relied
°n ^undberg y Bucbkoe, 389 F2d
1 54, 1 58 (6th Cir 1 968) ,
All these cases conflict with clearly
announced decisions from
this court. 5eB j!°thgery v
Michigan «
Brewer
V-Williams and McNeil,v Wisconsin.
-___ L- Neither of these holdings
mandated a prejudice showing in order to be entitled
to relief
when counsel was not afforded at the
arraignment. And since
Washington specifically relied on
the aforementioned precedent to
support a basis for relief and the lower
courts respectively made
decisions that conflict with relevant precedent from
this Court,
certiorari should be granted.
Supreme Court Rule 10(c).

’;;;assv
precedent
adjudication ran contrary to it for purposes of court's
granting
habeas relief.

In reviewing his habeas

corpus application and the motion for
a CDA , neither the federal district
court nor the sixth circuit
determined whether the state court's adjudication
was contrary to
Rothgery v Gillespie. supra when denying relief.
Indeed, Washington argued that the state court's decision
ran contrary to clearly established federal law,
namely , the
Rothgery-holdino when he was denied counsel
at the initial
arraignment. There was no dispute that
counsel was not afforded
(Appendix : ), so the only inquiry
was whether the United States
Supreme Court had clearly established that counsel
should be

14

afforded, and if it was clearly established,
whether the state
court's adjudication was contrary to it
f
and if so whether, under
2254(d)(1) habeas relief should be granted.
See Greene v Fisher.
132 Set 38, 44 (2011)(a federal
court reviewing habeas claims
must first look at the clearly established law at the time
of the
constitutional violation), Cullen v Pinholster. 563 US 170, 182
(2011)(habeas court instructed to
measure state court decisions
against the Supreme Court s precedent
as of the time the state
court renders its decision).
Here, neither courts (Sixth Circuit or District court)
even
made reference to Rothgery
, when it rejected relief, instead it
relied on other decisions
from lower courts.and never relied on
precedent from this court to determine whether habeas
relief was
appropriate under 28 USC 2254(d)(1),
This court s holding in Rothgery
supra, is not merely a
generalized statement or dicta, but a clearly established
requirement that specifically instructs
courts to provide
criminal defendants with counsel at the initial
appearance. See
Rothgery . There was nothing ambiguous about
the holding in
Rothgery. the lower courts simply failed to review
the claim
against the backdrop of Rothgery. Washington
was not afforded
counsel at the initial
arraignment, Rothgery had clearly
announced the sixth amendment right to counsel and the state
court made a decision contrary to Rothgery.
Habeas relief may be available when the
state court's merits

15

adjudicatio n resulted in

a decision that uas
contrary to, 0r
unreasonable application of
clearly established
federal lau as
determined ,by the United States
Supreme Court. See
Wiliams v Taylor,
529 US 362 (2000).
Had the district court or
the sixth circuit applied
these AEDPA
provisions, Washington would
Have been
entitled to habeas
corpus relief.
involved an

16

II.
“« Tortured *nd Co^eed ^
Detroit Police Detective.

*

F 1

T'1’* «*"•■■
Sta*a«"ents By A

By erroneously concluding that Washington did
not have
factual basis to support the
argument that the witness was indeed
coerced the Sixth Circuit
avoided the important question of
whether under de novo review Washington
s constitutional due
process rights were violated.
While this Court has not
expressly ruled that a state's use
of coerced third -party statements is
unconstitutional, this was
irrelevant for purposes of Antiterrorism
and Effective Death
Penalty Act (AEDPA) because the state
courts never adjudicated
this claim
on the merits, and under situations as such,
de novo
review was the appropriate standard to
review the claim. Wiggins
v Smith. 539 US 510, 534 (2003).

A) This
that a state^Cse of^oercelTthi^d01*^^to BXPras®ly rule
unconstitutional as other
frd“partV statements are

»ith only a split decision frozen. "roJn’dy acko“led9«.
This Court has

repeatedly held that "a defendant in a criminal
case is deprived of due
process of law if his conviction is
founded, in whole or in part,
upon an involuntary confession1'.
Lego v Twomev. 404 US 477, 482-85 (1 972)
* see also Crane v
Kentucky. 476 US 683, 687-88 (1 986).
This is so for two primary
reasons . First, confessions obtained
through violence or threats
are inherently unreliable.
^ee ^acKson y Denno. 378 US 368, 38586 (1964)(noting that
involuntary confessions are barred in part

17

because of the probable
unreliability of confessions that are
obtained in a manner deemed
coercive). Second, and most
importantly, the methods used to
secure coerced confessions are
repugnant to society and the
Constitution and violate a sense of
fundamental fairness. Rogers y Richmond.
365 US 534,

(noting that the methods used to

540-41 (1961 )

extract coerced confessions

offend an underlying principle in

the enforcement of our criminal
law: that ours is an accusatorial and
not an inquisitorial system ,
a system in which the State must establish
guilt by evidence
independently and freely

secure); Lego, 404 US at 484-85(The use
of coerced confessions, whether true or false,
is forbidden
because the method used to extract
them offends constitutional
principles); Blackburn v Alabama.
361 US 199, 206-07(1960)(In
cases involving involuntary

confessions, this Court enforces the
strongly felt attitude
of our society that important human values
are sacrificed w h b r e an agency of the
government, in the course
of securing a conviction, wrings a confession
out of an accused
against his will) .
The rationales for banning the
use of coerced confessions
apply with equal, if not greater2,
force in the context of coerced

^ The
coercedkstItementsaoJigInatesafrombaytMiHhtBned 'Jhen the
who is subjected to third don
, . *bird-party: An accused
fro. hia i nher antisense'of ^gelf6 int"r°Sa t ion -HI derive
-preservation some power to
resist the coercion, But the witness
who
of anything and has nothing to lose by hismay not be accused
testimony. . .
will be
=
f lie to escape tha pressure than
will the ""!
accuaed himself. 57Nu. Ul.Rev. 549, 552-53((1962).

18

r-

third-party statements, As Chief Justice Warren
recognized it is
simply not "relevant” that coercion is
exerted against a Witness
rather than the accused

Bradford v Michigan. 394 US 1022, 1023

(l969)(Wa rren, C3.,
dissenting from denial of certiorari);
see
also Malinski v New York. 324 US 401,
430-31 (1945)(Rutledge, J.,
dissenting)(Due process does not permit
one to be convicted upon
his own coerced confession.
It should not allow him to be
convicted upon a confession
wrung from another by coercion. A
conviction supported only by such
a confession could be but a
variation of trial by ordeal). In the words of
the California
Supreme Court:
[A] [coerced] statement by a witness
nr.
than one by a defendant i+a
? f is no more trustworthy
in conviction ,.uW bl'i,
* ‘“‘"I *"
to aid
sense of fair nlnu 9nri a
*ve
community’s
the exclusion of involuntar"^* !"d itS 8><clusil>". like
-old serve to
TstTf'’E "! '
during the guestioning of person: ll
^Be ^e°Ple v Underwood. 399 P2d 937, 943 (Cal.
1964); Dimmlck v
State. 473 P2d 616, 619-20 (Alaska
1970)(observing that the human
values impinged upon by the use of
coerced confessions may be as
much involved and in need of protection when
an involuntary
statement is used to convict
one not coerced into making it).
Indeed, "methods offensive when
used against an accused do not
magically became any less so when
exerted against a witness".
laFrance v Bohljnger. 499 F2d 29,
34 (1st Cir 1974), Consequently,
due process will not tolerate
the use of egregiously coerced
third-party witness statements to
secure a conviction at trial.

19

Numerous Courts Of Appeal, have indicted
499 f2d et 31,-35 (deeming it

as much . LaFrance.

unthinkable’ that statements that

are obtained through conduct belonging only in
a police state
should be admitted at the
government’s behest in order to bolster
its case); United States v Fredricks,
586 F2d 470, 481 (5th Cir
1978)(The use of statements derived
through shocking and
intentional police misconduct offends the
fundamental fairness
essential to due process of law); Bradford
—v Johnson. 354 F Supp
1331(ED Mich 1972), affirmed, 476 F2d 66 (6th Cir
1973)(affirming
the grant of habeas relief where a defendant
was convicted by a
state’s knowing use of coerced
testimony obtained by torture,
threats and abuse of a witness in
custody); United States «
Chiavola. 744 F2d 1271,
1273 (7th Cir 1984)(A violation of another
person's fifth amendment rights may rise to the
level of
violation of his rights to a fair trial)
* Douglas v Woodford. 31 6
F3d 1 079, 1 092 (9th Cir 2003)(Illegally obtained
confessions may
be less reliable than voluntary
ones, and thus using a coerced
confession at another s trial
can violate due process); Wilcox v
f°rd, 813 F2d 1140,
1148 (11th Cir 19B7)(The admission at trial
of improperly obtained statements which
results in
fundamentally
unfair trial violates a defendant'
s Fifth Amendment right to a
fair trial); and United States -v Modoes.
208 F3d 227, at *1(10th
Cir 2000)(A defendant s due
process rights are violated where a
witness is coerced into making false

statements and those
statements which are admitted at the defendant
s trial).
Despite this extensive

case law, the Seventh Circuit opined

20

that 'exclusion

of a coerced third -party statement would
require
the creation of new law rather than
the application of an existing
principle, Samuel v Frank. 525 F3d 566,
570 (7th Cir 2008). The
Seventh Circuit observed that
certain courts, "including ours, do
not think that there is an
exclusionary rule, as such, applicable
to third party statements . p
Id at 569(internal citations
omitted). This view conflicts with the views of
other courts of
appeals and cannot be squared with this
Court a decisions in Lego,
Jackson. R°gers■ and Blackburn.
This Court' s coerced-confession
jurisprudence necessitates the
conclusion that use of a
coerced witness statement violates
defendant's due
process rights. This Court should
grant certiorari
to clarify that, contrary to the Seventh
Circuit's holding in
Samuel y Frank. supra .
B) The state court record demonstrates
that Washington's due
process rights were violated.
The Detroit Police secured an
arrest warrant for Washington
based solely
on coerced statements obtained by Amanda Baer.
Baer
testified at an Investigative Subponea
Hearing that Washington
admitted to accidentally shooting
a girl. However, when Baer got
to a safe place,
she admitted that Detective Brian Bowser had
manufactured her statements and aiding her
in giving false
testimony under oath ,
At the preliminary hearing,

Baer informed the Magistrate

Judge that she was illegally arrested,
denied an attorney upon
21

f

request, pregnant,
bleeding in pain,

threaten into making false
statements against Washington under
oath, told that she would give
birth in jail, and that she would
spend 25 years in prison if she
did not say what Bowser told her to
say. (\j 98-110). Appendix il
Bowser testified that he did
not coerce or threatened Baer to
testify. According
to Bowser, he interviewed Baer
twice: The first
interview, Baer denied that
Washington made incriminating
statements to her,
and although the interview lasted for 90
minutes, Bowser failed to
take notes and the recording was
allegedly no longer available,
(VII 140-1 41). The second interview
however,
“0S recorded, but this tntervieu is when Baer
gave
inculpatory statements
against Washington. (V,
81 -112, 122-1 59) .
Appendix : «•
Trial counsel filed
a pre-trial motion
to Quash the Information
or either to suppress Baer's
testimony from being admitted at the
trial because it was coerced by Bowser.
A hearing was held on
September 21 , 2012, the trial
court heard respective
arguments
and denied the motion .
After his direct appeal, Washington filed
a post-conviction
motion arguing that
bis Constitutional due process rights
were
violated by the shockingly admission
of Baer 1 s coerced testimony.
This Court should also keep in mind
that Baer exercised her fifth
amendment right not to testify at the
trial because she had
admitted that her under oath
testimony at the investigative
hearing where she falsely
accused Washington of confessing was
22

manufactured by Bowser, so

any further testimony in that
regard at
perjury. The trial
court appointed her counsel,
snd she invoked the fifth
amendment. (III 29-57) .
Baer's testimony
was therefore
read to the jury from
the prior transcript.
the trial would be

Nevertheless, the state trial
court failed to
adjudicate the
claim on the merits.
On habeas review,
the federal district court
failed to answer the
question of whether
Washington s due process
rights were violated because
there was no
evidentiary hearing to
support the factual
contention that Baer
was coerced. The district
court went on to state:
"tS)imply
,.pu*» this Court _
because Washington did notcannot hold an
exercise the evidentiary hearing
in state
court. And without
the Court cannot resolvp
regarding Baer'
es01ve
Washington is
relief
to federal habeas
Appendix: R.

Opinion

at *[17]-*[20] .

The Sixth Circuit

followed the district

failed to s pecifically

court's position and

answer whether there was a due
process
violation because there
was no record to
support a factual basis.
Houever, both the sixth
circuit and
the federal district court
made fundamentally-fiauied
snd incorrect factual finding
s when they
opined that there
was no state -court
record to support the fact
that Baer
was coerced. To the
contrary, Baer s
testimony supports
coercion. See attached
Excerpts
ftPPendix: 3 . The
court could
have relied on the
same record as it did when
it reviewed the other
claims presented
on habeas review
snd if that was not
reasonable,
it should have
remanded for an
evidentiary hearing
facts .
for additional

23

Contrary to the Sixth Circuit' s erroneous determination that
there was no record to support that Baer was coerced (because there
was no evidentiary hearing), the excerpts attached hereto
proves
otherwise. Accordingly, this Court should review the record on
certiorari and address the question head-on: whether there is a
due process violation when the police coerce a third-party to
give perjured testimony.
In the alternative, this court should vacate, reverse and
remand for a hearing if additional facts are necessary to make the
ultimate decision regarding a violation of due process.

24

CONCLUSION

For the foregoing reasons, the Petition for a Writ of
Certiorari should be granted. Alternatively, issue an order to
vacate, reverse and remand for an evidentiary hearing.

Respectfully submitted,

Dated

^timiah Washington
Pro Se Litigant
Thumb Correctional Facility
3225 John Conley Drive
Lapeer, MI 48446

25

